                    Modernized e-File Project Integration
                  Difficulties Have Delayed Its Deployment

                                    March 2004

                       Reference Number: 2004-20-072




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 31, 2004

       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Modernized e-File Project Integration
                                      Difficulties Have Delayed Its Deployment
                                      (Audit # 200320040)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       efforts to develop and deploy the Modernized e-File (MeF) Project. The overall
       objective of this review was to determine whether the IRS will timely and effectively
       deliver the MeF Release 1 requirements, which are to provide Internet-based tax form
       filing for corporations and tax exempt organizations. This review is the first in a series
       of reviews of MeF Project development and deployment activities and is part of our
       Fiscal Year 2004 audit plan for reviews of the IRS’ modernization efforts.
       In summary, the MeF Project is the future of electronic filing with the IRS. The Project’s
       goal is to replace the current filing technology with a modernized, Internet-based
       electronic filing platform1 for any IRS form. The MeF Project has plans for five releases
       and is currently in Release 1. The first three releases will develop an electronic filing
       system for forms filed by corporations and tax exempt organizations. The MeF
       Release 4 will add forms filed by partnerships, estates, and trusts, and Release 5 will
       add forms and schedules filed by individuals.
       The IRS Business Systems Modernization Office (BSMO) and the MeF Project’s
       contractor have made significant progress in developing the MeF Release 1. Overall,
       the Project’s development plans included the desired capabilities. When implemented,
       the MeF will increase the use of electronic filing through a system that is efficient and
       easy to access, use, and maintain. This goal supports the President’s initiative for the
       Federal Government’s use of an Internet-based technology.



       1
           A platform is a computer system on which application programs can run.
                                                         2

Although the MeF Release 1 application and design development has incorporated the
desired capabilities, incompatibilities exist between the application and the
modernization program’s infrastructure.2 This divergence needs to be resolved to allow
Internet access to the MeF Release 1 by taxpayers, practitioners, and the IRS.
The divergence was created because the BSMO project team did not effectively
communicate the modernized infrastructure requirements to its contractor. Details in
the documentation of the MeF system’s physical design were not used to ensure the
Internet filing application development was in line with the modernized infrastructure.
This divergence has contributed to a delay in the deployment of the MeF Release 1 that
may minimize the benefits planned for the Tax Year 2003 corporate and tax exempt
organization tax returns with filing due dates in 2004. Also, the IRS is incurring
additional costs to modify the modernized infrastructure to accept the MeF Release 1
application.
To assess project management controls for the MeF Project development, we reviewed
32 project defect3 reports that had a change in their severity ratings. Of these, 6 ratings
were changed in error and 26 reports did not include any approval documentation for
the change in the rating. Without appropriate approval, these changes could cause
significant defects to miss the attention needed for resolution, possibly delaying Project
deployment.
To help the IRS proceed in modernizing its programs and avoid future difficulty in
migrating projects to its modernization program, we recommended the Chief Information
Officer (CIO) update the Enterprise Life Cycle (ELC)4 to ensure it has provisions to
migrate projects into the modernization program, including assessments of ELC and
Enterprise Architecture5 compatibility and the ability to manage existing contracts;
deliver a project’s physical design documentation prior to the project development
activities; and certify that a project’s physical design is in compliance with the Enterprise
Architecture. To help ensure adequate control for managing defect reports, the CIO
should also update the ELC to designate personnel with the authority to approve a
change in the severity ratings of defect reports and require documentation to show the
approval for the changes.


2
  The modernized infrastructure under development is geographically dispersed over various sites and includes
numerous pieces of hardware and software, which must effectively communicate and interact with each other as
they support projects that provide benefits to taxpayers and IRS employees.
3
  System components that fail a test are known as defects. Defects are given a severity rating to denote the
significance of the defect, with Critical (Level 1) indicating a problem that is critical to the system and Low
(Level 4) being a cosmetic or other problem that does not affect the performance of the system.
4
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of systems development and ensures alignment with the overall business strategy. All IRS and PRIME
contractor personnel involved in modernization are required to follow the ELC. The PRIME contractor is the
Computer Sciences Corporation, which heads an alliance of leading technology companies brought together to assist
with the IRS’ efforts to modernize its computer systems and related information technology.
5
  The Enterprise Architecture guides the organization of the modernization effort and provides a detailed roadmap
for modernization systems. Out of that Enterprise Architecture, projects can be defined, chartered, governed, and
run.
                                            3

Management’s Response: The CIO agreed with most of the recommendations
presented and has mandated that all projects migrating to the modernization program
conform to the Enterprise Architecture and follow an appropriate variant of the ELC.
The CIO agreed that a project’s physical design needs to be documented prior to
development activities and plans to establish an ELC Milestone 4a process to formally
reflect such a requirement. The BSMO plans to use Milestone 4a to incorporate a
review to determine whether a project’s physical design is in compliance with the
Enterprise Architecture. The BSMO has also taken action to improve controls over
changes to defect severity designations. However, the CIO does not believe it is
necessary to update the ELC with these process enhancements or additions.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: Although the corrective actions generally addressed the
recommendations, it is unclear where the procedures to migrate projects and to improve
the documentation of changes to the severity of the defects will be recorded, since the
ELC is not being changed. Because the ELC provides direction to IRS project
managers, we believe procedures to migrate projects and controls for changing the
severity of reported testing defects should be incorporated into the ELC for future
reference. While we still believe our recommendations are worthwhile, we do not intend
to elevate our disagreement concerning them to the Department of the Treasury for
resolution.
The CIO’s response also indicates that the MeF Project went live only 7 weeks later
than the early January target date set over 18 months ago. Documentation we
reviewed during the audit indicated the IRS promised the software developers they
could test their products beginning November 3, 2003. Due to the physical design
problems cited above, software developers were not able to start testing until
February 4, 2004, over 13 weeks later than originally promised. In addition, the
registered user portal that allows Internet access to the MeF system was not available
to the public until March 17, 2004, resulting in a delay of approximately 11 weeks in the
actual implementation date.
The CIO’s response further stated that the BSMO did ensure compliance with the
modernized infrastructure, and ensuring this compliance was a significant factor leading
to the several weeks delay. However, our review indicated that the BSMO did not
initially comply with the modernized infrastructure requirements, which led to delays
because changes had to be made to the modernized infrastructure to accept the MeF
system application. If the BSMO had ensured the MeF Project complied with the
modernized infrastructure before development began, the delays would not have
occurred.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
       Modernized e-File Project Integration Difficulties Have Delayed Its Deployment




                                                  Table of Contents


Background ............................................................................................... Page 1
The Modernized e-File Project Development Progress
Has Been Significant ................................................................................. Page 2
Ineffective Coordination About the Project Design
Has Delayed Deployment.......................................................................... Page 3
         Recommendation 1: ...................................................................... Page 10
         Recommendations 2 and 3: .......................................................... Page 11

Reassessments of Defect Severity Did Not Include
Approval Documentation ........................................................................... Page 12
         Recommendation 4: ...................................................................... Page 13

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 14
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Enterprise Life Cycle Overview .......................................... Page 18
Appendix V – Management’s Response to the Draft Report ..................... Page 22
      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                  The Internal Revenue Service (IRS) has offered electronic
Background
                                  filing options to individual taxpayers since the 1980s. In
                                  June 2000, the IRS approved two separate
                                  nonmodernization (non-PRIME1) electronic filing projects.
                                  One project was for corporate forms; the other project was
                                  for tax exempt organization forms. As the projects
                                  progressed, the IRS decided to combine the projects to
                                  eliminate duplication of effort and oversight and bring the
                                  combined project into the larger IRS/PRIME modernization
                                  effort. The project was renamed the Modernized
                                  e-File (MeF) Project and was initiated September 1, 2002.
                                  The MeF Project is the future of electronic filing with the
                                  IRS. The Project’s goal is to replace the current filing
                                  technology with a modernized, Internet-based electronic
                                  filing platform2 for any IRS form.
                                  Providing the capability for Internet-based filing of
                                  330 forms through the MeF system supports and facilitates
                                  the IRS’ commitment to achieve the IRS Restructuring and
                                  Reform Act of 1998 (RRA 98)3 goal of receiving “at least
                                  80 percent of all tax returns in electronic form by the year of
                                  2007.” Available data show that in 2001 about 31 percent
                                  of the individual tax returns were filed electronically and in
                                  2002 about 36 percent were filed electronically.
                                  The U.S. Corporation Income Tax Return (Form 1120),
                                  U.S. Income Tax Return for an S Corporation
                                  (Form 1120S), and Return of Organization Exempt From
                                  Income Tax (Form 990) do not use the current electronic
                                  filing system. Successfully implementing the MeF system
                                  for filing these returns (plus schedules and attachments) will
                                  give the IRS the capability to achieve the RRA 98 goals.
                                  The U.S. Individual Income Tax Return (Form 1040), U.S.
                                  Income Tax Return for Estates and Trusts (Form 1041), and
                                  U.S. Return of Partnership Income (Form 1065) can be


                                  1
                                    The PRIME contractor is the Computer Sciences Corporation, which
                                  heads an alliance of leading technology companies brought together to
                                  assist with the IRS’ efforts to modernize its computer systems and
                                  related information technology.
                                  2
                                    A platform is a computer system on which application programs can
                                  run.
                                  3
                                    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                  sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                  23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                  Page 1
        Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                    electronically filed now, but the current process has file size
                                    and standardization limitations that hinder achieving an
                                    80 percent submission rate. Without the MeF system, the
                                    IRS does not have the means available to meet this
                                    mandated goal.
                                    The MeF Project has plans for five releases and is currently
                                    in Release 1. The first three releases will develop an
                                    electronic filing system for forms filed by corporations and
                                    tax exempt organizations. The MeF Release 4 will add
                                    forms filed by partnerships, estates, and trusts, and
                                    Release 5 will add forms and schedules filed by individuals.
                                    This review was performed at the Business Systems
                                    Modernization Office (BSMO) facilities in
                                    New Carrollton, Maryland, during the period October 2003
                                    through January 2004. The audit was conducted in
                                    accordance with Government Auditing Standards. Detailed
                                    information on our audit objective, scope, and methodology
                                    is presented in Appendix I. Major contributors to the report
                                    are listed in Appendix II. Appendix IV presents an
                                    overview of the components of the Enterprise Life Cycle
                                    (ELC).4
                                    The BSMO and the contractor have made significant
The Modernized e-File Project
                                    progress in developing the MeF Release 1. Overall, the
Development Progress Has Been
                                    Project’s development plans included the desired
Significant
                                    capabilities. These capabilities include the use of an
                                    Extensible Markup Language (XML)5-based system to
                                    receive returns over the Internet. The MeF system will also
                                    be able to accept multiple tax return types and multiple tax
                                    returns submitted in the same transmission.
                                    Some other benefits of the MeF system include:
                                    •   The IRS will realize a reduced effort associated with
                                        receiving, processing, manually entering data, and
                                        resolving data entry errors from paper returns.
                                    •   The IRS will reduce system maintenance costs with the
                                        use of XML as the electronic means for filing.

                                    4
                                      The ELC establishes a set of repeatable processes and a system of
                                    reviews, checkpoints, and milestones that reduce the risks of systems
                                    development and ensures alignment with the overall business strategy.
                                    5
                                      The XML is the universal format for structured documents and data on
                                    the Internet.
                                                                                                  Page 2
        Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                    •   Taxpayers, tax practitioners, and the IRS will no longer
                                        have to provide the same amount of storage space that
                                        was needed for paper returns.
                                    •   Taxpayers and tax practitioners will save time and
                                        money associated with copying, assembling, and
                                        mailing a return.
                                    •   State agencies will be able to electronically share tax
                                        and information return data.
                                    •   Taxpayers, tax practitioners, and IRS employees will
                                        benefit from the increased amount of data available to
                                        customer support personnel.
                                    Another significant aspect of the MeF system’s goal is to
                                    increase the use of electronic filing through a system that is
                                    efficient and easy to access, use, and maintain. This goal
                                    supports the President’s initiative for the Federal
                                    Government’s use of an Internet-based technology. Also,
                                    the MeF system has benefits beyond the IRS functions. For
                                    disclosable information from filings of exempt
                                    organizations (Form 990), it will provide more accurate and
                                    timely electronic data for both public use and Federal and
                                    state law enforcement agency review.
                                    The MeF system has been designed to integrate with the
                                    capabilities offered by the e-Services Project. This Project
                                    provides mechanisms for registered Electronic Return
                                    Originators (ERO)6 to sign up for Internet capabilities
                                    offered by the IRS.
                                    Although the MeF Release 1 application and design
Ineffective Coordination About
                                    development has incorporated the desired capabilities,
the Project Design Has Delayed
                                    incompatibilities exist between the application and the
Deployment
                                    modernization program’s infrastructure.7 This divergence
                                    has contributed to a delay in the deployment of the

                                    6
                                      The EROs originate the electronic submission of income tax returns to
                                    the IRS. An ERO may originate the electronic submission of income
                                    tax returns that are either prepared by the ERO firm or collected from
                                    taxpayers.
                                    7
                                      The modernized infrastructure under development is geographically
                                    dispersed over various sites and includes numerous pieces of hardware
                                    and software, which must effectively communicate and interact with
                                    each other as they support projects that provide benefits to taxpayers and
                                    IRS employees.
                                                                                                      Page 3
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            MeF Release 1 that may minimize the benefits planned for
                            the Tax Year (TY) 2003 corporate and tax exempt
                            organization tax returns with filing due dates of
                            March 15, 2004, and May 15, 2004, respectively. Also, the
                            IRS is incurring additional costs to modify the modernized
                            infrastructure to accept the MeF Release 1 application.
                            The MeF Release 1’s Internet filing application provides the
                            ability to file tax returns via the Internet. The modernized
                            infrastructure is designed to use a single Java Virtual
                            Machine®8 to run the Internet filing application. The MeF
                            Project contractor designed the Internet filing application to
                            use multiple Java Virtual Machines®. This difference
                            between the application and the modernized infrastructure
                            needs to be resolved to allow Internet access to the MeF
                            Release 1 for deployment to taxpayers, practitioners, and the
                            IRS.
                            The BSMO accepted integration responsibilities to meet
                            its accelerated project development schedule
                            The MeF Project moved from an in-house IRS development
                            initiative to a modernization project in October 2002.
                            Because it was not initiated as a modernization project, the
                            in-house IRS development team used a project development
                            process different from the ELC process, which is required
                            for all modernization projects. The contractor assigned to
                            design and develop the MeF system was engaged while the
                            Project was an in-house initiative.
                            In anticipation of the MeF Project’s migration to the
                            modernization program, the PRIME contractor conducted a
                            feasibility assessment that led it to a decision not to bid for
                            the role as integrator (the entity responsible for coordinating
                            development projects into the modernized IRS systems). It
                            was not willing to accept the risk to deliver the
                            MeF Release 1 for the TY 2003 corporate and tax exempt
                            organization tax return filings. IRS senior management
                            decided to move forward with the concept of the BSMO


                            8
                             A Java Virtual Machine® interprets compiled Java binary code for a
                            computer’s processor (or “hardware platform”) so that it can perform a
                            Java program’s instructions. Java software was designed to allow
                            application programs to be built that could be run on any platform
                            without having to be rewritten or recompiled by the programmer for
                            each separate platform.
                                                                                            Page 4
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            being the integrator, believing it was in a better position to
                            direct and coordinate the overall project activities for
                            delivery (i.e., incorporating the MeF Project into the
                            modernization program).
                            The BSMO accepted this role, in part, to satisfy previous
                            commitments to external stakeholders (taxpayers,
                            practitioners, and software developers) that the
                            MeF Release 1 would be operational for the filing of the
                            TY 2003 corporate and tax exempt organization tax returns.
                            It also believed that having the PRIME contractor manage
                            the work of the application contractor was not necessary and
                            would have added substantial overhead costs.
                            The BSMO project team did not effectively
                            communicate the modernized infrastructure
                            requirements to its contractor
                            The IRS conducted a review in December 2002 to certify
                            the MeF Project’s logical design with the Enterprise
                            Architecture.9 Normally, the PRIME contractor conducts
                            the Enterprise Architecture certification for modernization
                            projects. Although it was invited to participate, the PRIME
                            contractor declined because the project documentation was
                            not updated to be in compliance with the ELC.
                            IRS executives decided not to update the existing project
                            documentation because they did not believe it was the best
                            use of resources and would potentially delay the Project.
                            Taking the steps to update the MeF Project’s documentation
                            and to have the PRIME contractor participate in the
                            certification process using its experience with the
                            modernized infrastructure may have provided an
                            opportunity to identify technical problems with the MeF
                            Project.
                            Although the modernized infrastructure prescribes that
                            applications should run on a single Java Virtual Machine®,
                            the contractor’s April 30, 2003, physical design of the
                            Internet filing application required the use of multiple Java
                            Virtual Machines®. The contractor provided the finalized
                            physical design to the IRS on May 13, 2003. This version

                            9
                             The Enterprise Architecture guides the organization of the
                            modernization effort and provides a detailed roadmap for modernization
                            systems. Out of that Enterprise Architecture, projects can be defined,
                            chartered, governed, and run.
                                                                                          Page 5
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            of the Internet filing application design did not specify the
                            use of single or multiple Java Virtual Machines®.
                            On June 3, 2003, the contractor conducted a final
                            walk-through of the MeF Release 1 Internet filing
                            application’s physical design with the IRS and the PRIME
                            contractor. Although the plan to use multiple Java Virtual
                            Machines® was evident during the walk-through, neither the
                            BSMO nor the PRIME contractor recognized this
                            divergence between the Internet filing application design
                            and the modernized infrastructure.
                            According to the contractor, the information it received
                            necessitated the use of multiple Java Virtual Machines®.
                            This occurred because the BSMO did not provide adequate
                            guidance about these requirements to the contractor and did
                            not ensure the application’s design was compliant with the
                            modernized infrastructure specification to use a single Java
                            Virtual Machine®.
                            The MeF Project engineering review performed by the
                            IRS and the PRIME contractor encountered project
                            documentation problems
                            The BSMO initiated an engineering review as part of its
                            project development process to assess the adequacy of the
                            MeF Project’s physical design. On June 19, 2003, the
                            PRIME contractor and IRS staff conducted the engineering
                            review. While the use of infrastructure design artifacts
                            helped the review team understand how key information
                            flows through the MeF system, the team reported that this
                            information did not sufficiently describe the design of the
                            MeF system components.
                            The review team further noted that the application and
                            infrastructure design documents were not only separate but
                            also were different in format and content. As a result, the
                            team related it was likely that some important issues were
                            not identified during the review session. In addition, they
                            reported that the absence of a coherent, integrated set of
                            design documentation will cause significant problems
                            downstream after MeF Release 1 has been placed into
                            production and becomes the responsibility of the IRS to
                            maintain and enhance.



                                                                                    Page 6
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            Actions to resolve the Internet filing application
                            integration difficulties are in process
                            On August 22, 2003, MeF Project staff first surfaced the
                            integration difficulties with the Internet filing application
                            during a regularly scheduled integration conference call
                            between IRS and contractor personnel. Between
                            September 3 and September 11, 2003, the contractor held
                            meetings to work through technical issues, including the
                            Internet filing application issue. During these meetings, the
                            IRS and the contractor decided to modify the infrastructure
                            for the MeF Release 1 to allow the application to use
                            multiple Java Virtual Machines®. After the MeF Release 1
                            becomes operational, the BSMO plans to revisit the design
                            to identify the best solution for the business needs of the
                            IRS and to ensure both the Enterprise Architecture and MeF
                            Project reflect that solution.
                            The IRS submitted a change request on October 14, 2003, to
                            modify the Enterprise Architecture to support the use of
                            multiple Java Virtual Machines®. The BSMO will not
                            know the costs involved with reengineering the
                            infrastructure to accept the Internet filing application until
                            the IRS receives the billings from the contractors.
                            Several causes contributed to the integration difficulties
                            associated with the MeF Project Internet filing
                            application
                            The integration difficulties presented above can be
                            attributed to incomplete guidance in the ELC to promote
                            adequate coordination in application development that
                            ensures compliance with the Enterprise Architecture.
                            •   There are no procedures for migrating IRS in-house
                                development projects to the modernization program.
                                -   Requiring projects to become ELC-compliant, as
                                    part of the migration process, would necessitate
                                    involving the PRIME contractor in the Enterprise
                                    Architecture certification. If the PRIME contractor
                                    had conducted the certification, it may have
                                    identified the divergence related to the Internet filing
                                    application as early as December 2002.
                                -   The BSMO also encountered migration problems
                                    with the MeF Project’s contracts. The Project had

                                                                                     Page 7
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                    three contracts with two contractors when it
                                    migrated from an in-house project. Two additional
                                    contracts with the PRIME contractor were required
                                    for development as a modernization project.
                                    Because of the five separate contracts through three
                                    contractors associated with the Project’s
                                    development, the BSMO encountered project
                                    management, coordination, and communication
                                    problems. This resulted in the BSMO spending
                                    more time than it preferred to manage the activities
                                    related to each contractor and contract provision.
                            •   There is no guidance designating a point in the project
                                life cycle for delivering a system’s physical design. The
                                physical design should be available before the
                                development of the system so details are available to
                                identify any possible issues between the application and
                                the infrastructure.
                            •   There is no requirement that a project be certified using
                                the physical design to ensure compliance with the
                                Enterprise Architecture.
                            Although the ELC does not provide the controls to ensure
                            project design complies with the modernized infrastructure,
                            the PRIME contract requires this compliance. Specifically,
                            the contract states:
                                The PRIME [contractor] will assume total responsibility
                                and be singularly accountable for performance of the
                                contract. Specific areas where the PRIME [contractor]
                                will have lead performance responsibility include:
                                -   Modernization infrastructure.
                                -   Horizontal integration.
                                -   Compliance with the modernization blueprint
                                    architecture and standards.
                                -   Contractor operations and maintenance.
                            Further, the modernization infrastructure contract provides
                            that the PRIME Infrastructure Engineering organization is
                            responsible for infrastructure integration. The contract
                            includes the provision that during the development phase
                            the PRIME Infrastructure Engineering organization will
                            ensure architectural compliance of the infrastructure. New
                            infrastructure requirements will be traced back to the
                            Enterprise Architecture to ensure compliance and to identify
                                                                                   Page 8
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            differences with the existing Enterprise Architecture. This
                            contract also specifies that the PRIME contractor is
                            responsible for providing technical assistance and expertise
                            to help enable MeF Project developers create and deploy the
                            MeF system.
                            Because the BSMO did not ensure compliance with the
                            modernized infrastructure, the MeF Release 1 deployment
                            has been delayed. Although the BSMO took additional
                            steps to provide quality control in the MeF Project
                            development by instituting an engineering review, the
                            review was not effective because proper documentation was
                            not provided to the reviewers to prepare for the review.
                            The BSMO based the engineering review on the logical
                            design documentation and an oral briefing about the
                            physical design, even though the physical design
                            documentation was available. Use of the physical design
                            documentation may have allowed earlier identification of
                            the Internet filing application issue. Even after the issue
                            was identified in August 2003, closer attention to the
                            significance of the difference between the operating
                            requirements of the Internet filing application and the
                            modernized infrastructure’s design could have closed this
                            divergence prior to project testing.
                            Taking actions to resolve this issue when it was identified
                            could have minimized the effect on the MeF Project’s
                            schedule. Since the issue was identified late in the project
                            development cycle, there has been a greater effect on the
                            Project’s schedule because testing has been delayed until the
                            issue is resolved. Due to the delays in testing, the
                            MeF Release 1 original deployment date of January 4, 2004,
                            has been changed several times and, at the time we
                            completed our fieldwork, was planned for
                            February 13, 2004. However, the MeF Release 1
                            deployment activities are behind schedule, and deployment
                            is not definite until the Internet filing application is
                            operational. While planned for availability by
                            November 3, 2003, the Internet filing application was not
                            operational as of January 12, 2004.




                                                                                   Page 9
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            Recommendations

                            To help ensure the efficient and effective development of
                            modernization projects, the Chief Information Officer (CIO)
                            should update the ELC to include provisions to:
                            1. Migrate projects into the modernization program. The
                               procedures should include:
                                -   An assessment of a project’s compliance with ELC
                                    documentation requirements and consideration of the
                                    need for updating relevant documentation to
                                    effectively proceed with the development of the
                                    project.
                                -   An analysis of a project’s compatibility with the
                                    Enterprise Architecture.
                                -   An analysis of existing contract requirements and the
                                    impact of these contracts on the management of a
                                    project throughout its life cycle. Consideration
                                    should be given, if feasible, to consolidating the
                                    contracts. Consolidating the contracts as part of the
                                    migration may help with the efficiency and
                                    effectiveness of the project management. The
                                    contract assessment should also ensure provisions
                                    include requirements to follow the ELC and to
                                    comply with the Enterprise Architecture.
                            Management’s Response: The CIO responded that the IRS
                            will ensure the procedures outlined above are implemented
                            for any future projects migrating to the modernization
                            program and has mandated that all systems development
                            projects conform to the Enterprise Architecture and follow
                            an appropriate variant of the ELC. The CIO stated an
                            update to the ELC is not necessary at this time.
                            Office of Audit Comment: Although the CIO indicated that
                            the above procedures will be followed, it is unclear where
                            these procedures will be documented, since the ELC is not
                            being changed. Because the ELC provides direction to
                            project managers, we believe the procedures for migrating
                            projects into the modernization program should be
                            incorporated into the ELC for future reference and to
                            prevent delays similar to those experienced by the MeF
                            Project.

                                                                                  Page 10
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            The CIO’s response also indicates that the MeF Project went
                            live only 7 weeks later than the early January target date set
                            over 18 months ago. Documentation we reviewed during
                            the audit indicated the IRS promised the software
                            developers they could test their products beginning
                            November 3, 2003. Due to the physical design problems
                            cited above, software developers were not able to start
                            testing until February 4, 2004, over 13 weeks later than
                            originally promised. In addition, the registered user portal
                            that allows Internet access to the MeF system was not
                            available to the public until March 17, 2004, resulting in a
                            delay of approximately 11 weeks in the actual
                            implementation date.
                            The CIO’s response further stated that the BSMO did ensure
                            compliance with the modernized infrastructure, and
                            ensuring this compliance was a significant factor leading to
                            the several weeks delay. However, our review indicated
                            that the BSMO did not initially comply with the modernized
                            infrastructure requirements, which led to delays because
                            changes had to be made to the modernized infrastructure to
                            accept the MeF system application. If the BSMO had
                            ensured the MeF Project complied with the modernized
                            infrastructure before development began, the delays would
                            not have occurred.
                            2. Deliver a project’s physical design documentation prior
                               to the start of project development activities.
                            Management’s Response: The CIO responded that this is
                            already called for in the ELC. However, the BSMO is in the
                            process of establishing an ELC Milestone 4a to formally
                            reflect such a requirement.
                            3. Certify that a project’s physical design is in compliance
                               with the Enterprise Architecture.
                            Management’s Response: The CIO responded that the
                            BSMO currently certifies that a project’s logical design is in
                            compliance with the Enterprise Architecture as one of the
                            ELC’s Milestone 3 exit criteria. While the BSMO does not
                            intend to call it a certification, a review of whether the
                            physical design has implemented the certified logical design
                            will be conducted as a Milestone 4a exit requirement.



                                                                                  Page 11
        Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                    Problems, also known as defects, may be found in software,
Reassessments of Defect Severity
                                    hardware, documents, or other controlled products.
Did Not Include Approval
                                    Typically, defects are identified during testing or by the end
Documentation
                                    user of a product. The BSMO and the PRIME contractor
                                    adopted procedures for identifying, reporting, and resolving
                                    defects.
                                    Defect reports are given severity ratings that are used to
                                    determine the urgency in correcting the defects. There are
                                    four levels of priority to identify the severity of a defect
                                    report: Critical, High, Medium, and Low. Defect reports
                                    with a Critical or High severity are more serious and require
                                    immediate attention.
                                    To assess project management controls for the MeF system
                                    development, we reviewed all 32 defect reports with a
                                    change in the severity rating from a universe of 774 defect
                                    reports. Of these, 6 ratings were changed in error and the
                                    remaining 26 reports did not include any approval
                                    documentation for the change in the rating. All but one of
                                    the changes reduced the severity rating. All ratings that
                                    were reduced were changed to a Medium or Low severity
                                    rating.
                                    The ELC does not include procedures to approve and
                                    document a change in the severity rating of defect reports.
                                    The Defect Report Coordinator changed the rating of the
                                    majority of the selected defect reports, even though the ELC
                                    does not delegate the Coordinator this responsibility. The
                                    ELC does provide that the Defect Review Board should
                                    resolve issues about defect report severity. However, the
                                    BSMO did not have documentation to show that the Defect
                                    Review Board approved the changes in severity rating for
                                    the selected defect reports.
                                    The absence of specific guidance in the ELC allows for
                                    defect report severity rating changes without sufficient
                                    consideration of the effect on deployment. These changes
                                    could cause significant defect reports to be moved to a
                                    lower severity rating and result in their not getting the
                                    attention needed for resolution. Without timely resolution,
                                    the defect reports in question could delay deployment.




                                                                                          Page 12
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                            Recommendation

                            To help ensure adequate control over defect reporting,
                            resolution, and closure for future modernization projects, the
                            CIO should:
                            4. Update the ELC procedures to designate personnel with
                               the authority to approve a change in the severity rating
                               of a defect report and require documentation to show the
                               approval for a change in severity rating.
                            Management’s Response: The CIO agreed that there has
                            not been adequate documentation of the Defect Review
                            Board’s actions in changing the severity of defects. The
                            Defect Report Tracking System provides a comments
                            section in which such documentation could be provided, but
                            it has been inconsistently used for such a purpose. Based on
                            this audit, the BSMO has changed two procedures. Now, all
                            severity changes performed by the IRS Defect Report
                            Coordinator are documented, as are all comments made by
                            the Defect Review Board. However, the CIO did not
                            believe an update to the ELC is necessary because the
                            Defect Reporting Tracking and Resolution process is
                            controlled by the PRIME contractor’s configuration
                            management procedures.
                            Office of Audit Comment: Although the actions taken by
                            the CIO will improve the documentation of changes to the
                            severity of the defects, it is unclear where these procedures
                            will be documented for IRS use, since the ELC is not being
                            changed. Because the ELC provides direction to IRS
                            project managers, we still believe controls for changing the
                            severity of reported testing defects should be incorporated
                            into the ELC for future reference.




                                                                                  Page 13
       Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue
Service (IRS) will timely and effectively deliver the Modernized e-File (MeF) Release 1
requirements, which are to provide Internet-based tax form filing for corporations and tax
exempt organizations. This review is the first in a series of reviews of MeF Project development
and deployment activities and is part of our Fiscal Year 2004 audit plan for reviews of the IRS’
modernization efforts. To accomplish our objective, we:
I.      Determined the status of the MeF Release 1 and the impact that risks and issues will have
        on the Project in meeting its Tax Year (TY) 2003 corporate and tax exempt organization
        tax return filing requirement.
        A. Determined the status of the Internet filing application solution for the architectural
           mismatch between the MeF system and the modernized infrastructure.1
        B. Determined the impact that combined System Integration Testing and System
           Acceptance Testing activities will have on the MeF Project schedule.2
             1. Assessed the adequacy of the resolution of problems identified during project
                testing.
             2. Reviewed all 32 defect3 reports with a change in severity rating from a population
                of 774 identified defect reports as of November 14, 2003.
        C. Determined the status of the scope of MeF Release 1 capabilities planned for the
           TY 2003 corporate and tax exempt organization tax returns with filing due dates of
           March 15, 2004, and May 15, 2004, respectively.
II.     Determined the impact that cross-project dependencies had on the timely delivery of
        the MeF Release 1 and on other modernized projects.




1
  The modernized infrastructure under development is geographically dispersed over various sites and includes
numerous pieces of hardware and software, which must effectively communicate and interact with each other as
they support projects that provide benefits to taxpayers and IRS employees.
2
  Integration testing ensures that all system components (hardware and software) are working correctly and
collectively with other related or dependent systems. Acceptance testing determines whether a system meets user
and contract requirements and objectives.
3
  System components that fail a test are known as defects. Defects are given a severity rating to denote the
significance of the defect, with Critical (Level 1) indicating a problem that is critical to the system and Low
(Level 4) being a cosmetic or other problem that does not affect the performance of the system.
                                                                                                         Page 14
       Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

III.   Determined the impact of delays of MeF Release 1 deployment on external stakeholders:
       software developers, tax practitioners, corporations, and tax exempt organizations.




                                                                                     Page 15
      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Beverly Tamanaha, Senior Auditor
Linda Screws, Auditor




                                                                                         Page 16
      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Associate Commissioner, Business Systems Modernization OS:CIO:B
Chief, Information Technology Services OS:CIO:I
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Deputy Associate Commissioner, Program Management OS:CIO:B:PM
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison:
        Associate Commissioner, Business Systems Modernization OS:CIO:B
        Chief, Information Technology Services OS:CIO:I




                                                                                   Page 17
        Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                                                                                     Appendix IV


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes, transformation of the
organization, and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    Life-Cycle Processes, which are organized into phases and subphases and which address all
    domains of business change.
    Management Processes, which are organized into management areas and which operate
    across the entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation (CSC), which heads an alliance of leading
technology companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the CSC during the contract period.
                                                                                                              Page 18
                 Modernized e-File Project Integration Difficulties Have Delayed Its Deployment



                                                        Enterprise Life-Cycle Processes


                                       IRS Governance and Investment Decision Management
    Management




                                                Program Management and Project Management

                                       Architectural Engineering / Development Coordination

                                                        Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                   Vision & Strategy




                                                         Development
                                         Architecture




                                                                                     Deployment
                                                                       Integration
    Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                 Page 19
      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.



                                                                                           Page 20
      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

•      Management Support Processes - This area includes common management processes,
       such as Quality Management and Configuration Management, that operate across
       multiple levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 – Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 – Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 – Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 – Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 – Business Systems Deployment and Post-Deployment Evaluation. In
       the activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.

                                                                                            Page 21
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment

                                                                      Appendix V


              Management’s Response to the Draft Report




                                                                            Page 22
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment




                                                                            Page 23
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment




                                                                            Page 24
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment




                                                                            Page 25
Modernized e-File Project Integration Difficulties Have Delayed Its Deployment




                                                                            Page 26
